OIG Audit Report 01-28
Drug Enforcement AdministrationAnnual
Financial  Statement  Fiscal Year 2000
Report No. 01-28
September 25, 2001
Office of the Inspector General
COMMENTARY AND SUMMARY
The Drug Enforcement Administration (DEA) is the lead federal agency responsible for overall drug enforcement strategy and programs.  Its mission is to enforce the controlled substance laws and regulations, disrupt the production and distribution of illegal drugs worldwide, and support non-enforcement programs aimed at reducing the availability of illicit substances.  In fiscal year (FY) 2000, the DEA had over 8,700 employees located in 56 countries and an annual budget of approximately $1.56 billion.
This audit report contains the Annual Financial Statement of the DEA for the fiscal year ended September 30, 2000.  Under the direction of the Office of the Inspector General, the audit was performed by KPMG and resulted in an unqualified opinion.  An unqualified opinion means that the financial statements present fairly, in all material respects, the financial position and the results of its operations.   Comparative financial statements were not required this year and are therefore not presented.
Although the DEA received an unqualified opinion, four internal control weaknesses were reported that warrant management's attention.  Three repeat material weaknesses were reported in previous fiscal year reports that involved: the reconciliation of DEA's Fund Balance with Treasury, the financial reporting process, and controls over information systems.  The fourth material weakness previously identified as a reportable condition, concerns the procedures used to review and deobligate funds.  KPMG also noted two reportable conditions relating to the untimely payment of invoices and EDP general controls.  Corrective actions have been completed for a prior material weakness on property and equipment and two reportable conditions regarding date of receipt and acceptance, and operating materials and supplies.
In its report on Compliance with Laws and Regulations, the auditors reported that the DEA's financial management systems did not substantially comply with the requirements of the Federal Financial Management Improvement Act of 1996 as a result of the material weaknesses in internal control.  Additionally, the auditors found the DEA reprogrammed funds without proper congressional notification, and therefore was not in compliance with the FY 2000 Department of Justice Appropriations Act.